BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Reply Brief for the
Petitioners in 19-447, Keith Puntenney, et al. v. Iowa
Utilities Board, et al., were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 20th day of January, 2020:
David John Debold
Gibson Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8551
dde bold@gibsondunn.com
Bret A. Dublinske
Brant M. Leonard
Fredrickson & Byron, P.A.
505 East Grand Avenue, Suite 200
Des Moines, Iowa 50309
(515) 242-8900
bdublinske@fredlaw.com
bleonard@fredlaw.com

Counsel for Respondent Dakota Access, LLC
Samantha Norris
Iowa Utilities Board
1375 East Court Avenue, Room 69
Des Moines, Iowa 50319-0069
(515) 725-7330
samantha.norris@iub.iowa.gov

Counsel for Respondent Iowa Utilities Board

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

John S. Long
Office of the Consumer Advocate
Iowa Department of Justice
1375 East Court Avenue, Rm 63
Des Moines, Iowa 50319-0063
(515) 722-7200
john.long@oca.iowa.gov
Counsel for Respondent Office of Consumer Advocate
Matthew C. McDermott
Espnola F. Cartmill
Belin McCormick, P.C.
666 Walnut Street, Suite 2000
Des Moines, Iowa 50309-3989
(515) 283-4643
mmcdermottr@belinmccormick.com
efcartmill@belinmccormick.com
Counsel for Respondent The MAIN Coalition
Wallace L. Taylor
Law Offices of Wallace L. Taylor
118 3rd Ave. S.E., Suite 326
Cedar Rapids, Iowa 52401
(319) 366-2428
wtaylorlaw@aol.com
Counsel for Respondent Sierra Club Iowa Chapter
Office of the Attorney General of Iowa
Hoover State Office Building
1305 E. Walnut Street
Des Moines, IA 50319

Eduardo E. Santacana
Counsel of Record
Jay Rapaport
Keker, Van Nest & Peters LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
esantacana@keker.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 20, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

,. ,,, .... y PuLlic, 3tale uf Ohio
, , C,;n1rnis·:ion Exphes
. I 1i;Ji'Jflr'Y 21I 2023

